OIG Investigative Reports, Maine Department of Education to Pay United States $1.5 Million to Settle False Claims Involving Migrant Education Program
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
Maine Department of Education to Pay United States $1.5 Million to Settle False Claims Involving Migrant Education Program
FOR IMMEDIATE RELEASE
Thursday, May 21, 2009
WWW.USDOJ.GOV
CIV
(202) 514-2007
TDD (202) 514-1888
The Maine Department of Education (MDE) has agreed to pay the United States $1.5 million to settle allegations that it submitted false information to the U.S. Department of Education regarding the state education agency's eligibility to receive federal funds under the Migrant Education Program.
Under the Migrant Education Program, the U.S. Department of Education provides funds to states and territories to assist state education agencies in providing appropriate educational services that address the special needs of migrant children. The regulations governing the Migrant Education Program enumerate specific criteria for state education agencies to use in identifying migratory children. The states and territories are responsible for providing to the U.S. Department of Education an accurate count of eligible migratory children residing within the State or territory.
The United States alleges the MDE, Portland Public Schools, Maine Administrative School District #14 and the Maine Family Resource Center Inc., a non-profit corporation responsible for identifying and servicing migrant children residing in much of the state of Maine, falsely represented the number of eligible migratory children residing within the state for fiscal years 2002, 2003 and 2004. Based on the false child counts reported by the MDE to the U.S. Department of Education, the defendants received federal funds to which they were not entitled. The United States' amended complaint was filed in the U.S. District Court for the District of Maine.
"Todays settlement is an example of the Justice Departments work in protecting federal taxpayers dollars and ensuring that federal monies are used for their intended purposes," said Tony West, Assistant Attorney General for the Departments Civil Division.
This settlement resulted from collaborative efforts by the Office of the U.S. Attorney for District of Maine; the U.S. Department of Education, Office of Inspector General; U.S. Department of Education, Office of General Counsel; and the Civil Division of the Department of Justice.
###
09-501
Top
Printable view
Share this page
Last Modified: 05/26/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov